STATE OF MINNESOTA
September 15, 2020

IN SUPREME COURT

Office of
ApfeuateCourtc

A20-0956
State of Minnesota,
Respondent,
vs.
Emem Ufot Udoh,
Petitioner.
ORDER
Based upon all the files, records, and proceedings herein,

IT IS HEREBY ORDERED THAT:
1.

The motion of petitioner Emem Ufot Udoh for leave to proceed in forma

pauperis be, and the same is, denied as there is no filing fee, see Minn. Stat. § 590.02 (2018).
2.

The motion of petitioner Emem Ufot Udoh for release pending appeal, be and

the same is, denied.
3.

The motions of petitioner Emem Ufot Udoh filed on August 20, 2020, and

August 25, 2020, to file amended petitions for further review be, and the same, are each
denied.
4.

The petition of Emem Ufot Udoh for further review filed on July 29,2020, be,

and the same is, denied.
Dated: September 15, 2020

B

OURT:

G. Barfy Anderson’
Associate Justice

STATE OF MINNESOTA
July 17, 2020

IN COURT OF APPEALS

Office of
AppbjaieCouhts

State of Minnesota,
ORDER
Respondent,
#A20-0956
vs.
Emem Ufot Udoh,
Appellant.
BASED ON THE FILE, RECORD, AND PROCEEDINGS, AND BECAUSE:
1.

On July 14, 2020, appellant filed a notice of appeal from the Hennepin

County District Court’s June 2, 2020 order denying motions appellant had filed to vacate
previous orders of the court denying his petition for postconviction relief and denying
appellant’s application to proceed in forma pauperis (IFP) in district court to obtain
transcript preparation expenses.
2.

The district court orders appellant moved to vacate were issued in connection

with his first petition for postconviction relief. Appellant previously sought review of those
orders in appeal A19-1129. When appellant failed to file a timely brief, this court
dismissed appeal A19-1129 and appellant failed to seek further review from the supreme
court. The district court’s orders have now become final. We have also indicated that
those orders are not before us in appellant’s pending appeal, A20-0633, from the denial of
his second petition for postconviction relief.

3.

Appellant’s motion to vacate the district court’s prior orders were brought

pursuant to rules 60.01 and 60.02 of the rules of civil procedure. The rules of criminal
procedure, however, only permit defendants to appeal from a judgment of conviction, an
order denying “a petition for postconviction relief under” Minnesota Statutes chapter 590,
certain other orders (conditions of release, new trial, incompetency, double jeopardy), and
some sentences. See Minn. R. Crim. P. 28.02, subd. 2. The criminal rules do not authorize
an appeal from an order denying a motion to vacate previously issued orders denying
postconviction relief or motions for relief pursuant to the rules of civil procedure.
4.

To the extent that appellant sought relief on the basis of alleged errors in the

district court’s disposition of his prior claim of recantation, those errors could have been
raised in his previous appeal (A 19-1129) and so cannot now be revived by way of a motion
to vacate.
5.

Appellant also seeks to appeal the district court’s denial of his application to

proceed IFP in order to obtain payment for the costs of transcribing audio exhibits
introduced at an October 18, 2018 evidentiary hearing concerning appellant’s first petition
for postconviction relief. The rules of criminal procedure do not provide an independent
basis on which a defendant may appeal from a district court’s denial of an application to
proceed IFP in the district court. See Minn. R. Crim. P. 28.02. Moreover, the rules of civil
appellate procedure-

:ven were they applicable in this matter—do not provide for an

appeal from this order because it does not effectively determine any existing action or
preclude the entry of a judgment from which an appeal may be taken. Minn. R. Civ. App.

2

P. 103.03(e). Accordingly, the district court’s denial of appellant’s application to proceed
IFP may not be appealed.
IT IS HEREBY ORDERED: This appeal is dismissed as being taken from
nonappealable orders.
Dated: July 17, 2020
BY THE COURT

Scgii|. Sima
Jul ||r. 2f!20< II PM

Susan L. Segal
Chief Judge

3

